No. ______
In the

Supreme Court of the United States
__________________
HEATHER BAKER, Personal Representative of the
Estate of Kyle Baker, Deceased,
Petitioner,
v.
CITY OF TRENTON, MI; MARK DRISCOLL; STEVE LYONS;
AARON BINIARZ; STEVE ARNOCZKI,
Respondents.
__________________
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Sixth Circuit

__________________
PETITION FOR WRIT OF CERTIORARI
__________________
Mark R. Bendure
Counsel of Record
BENDURE & THOMAS, PLC
15450 E. Jefferson Avenue
Suite 110
Grosse Pointe Park, MI 48230
(313) 961-1525
bendurelaw@cs.com
Counsel for Petitioner

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
I.
1. Whether, consistent with the Second
Amendment right to bear arms, police can conduct a
warrantless search of a private home based on the
resident’s lawful purchase and possession of a firearm,
in the absence of any indication that the gun was ever
used illegally or offensively.
2. Whether Respondents’ claimed belief that the
decedent’s mother was at risk of imminent injury,
based on a police dispatch, satisfies the “objectively
reasonable” requirement for a warrantless “risk of
danger” entry of a private residence when the mother
had not been in the home that day, nobody told the
dispatcher that the mother was at the home, and the
dispatcher did not tell the officers that the mother was
at the home.
II.
3. Whether, in an excessive force case arising from
a fatal police shooting, in which a defendant seeks
summary judgment on grounds of self-defense, a
disputed issue of material fact is presented when the
plaintiff provides the official autopsy report which
contradicts the defendant’s story, but no expert report
or testimony.
4. Whether, when a jury can reasonably find that
retreat to safety was available, it is “excessive force” to
instead kill a young man wielding a lawn mower blade,
suspected of having stolen a cell phone and being
mentally unbalanced.

ii
PARTIES TO THE PROCEEDING
Petitioner Heather Baker is the mother of Kyle
Baker, an eighteen year old high school student whose
death is the subject of this lawsuit. She was appointed
Personal Representative of Kyle’s Estate by the
Michigan Probate Court and is authorized by MCL
600.2922, Michigan’s Wrongful Death Act, to pursue
this action on behalf of Kyle’s Estate.
Respondent City of Trenton is a Michigan municipal
corporation located about 20 miles from Detroit.
Respondent Mark Driscoll is a police officer employed
by the City of Trenton who shot and killed Kyle Baker.
Respondents Steve Lyons, Aaron Biniarz, and Steve
Arnoczki are also police officers employed by the City
of Trenton who joined Driscoll in entering Kyle Baker’s
home without a warrant.

iii
STATEMENT OF RELATED PROCEEDINGS
• Baker v City of Trenton, et al., No. 18-2181 (6th
Cir.) (Opinion issued and judgment entered
August 29, 2019; mandate issued September 20,
2019).
• Baker v City of Trenton, et al., No. 2:16-cv-12280
(E.D. Mich.) (Opinion and Judgment entered
September 24, 2018).
There are no additional proceedings in any court
that are directly related to this case.

iv
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING. . . . . . . . . . . . . . ii
STATEMENT OF RELATED PROCEEDINGS . . . iii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . vii
PETITION FOR WRIT OF CERTIORARI . . . . . . . . 1
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL PROVISIONS INVOLVED. . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 3
REASONS FOR GRANTING THE PETITION . . . 16
I. PETITIONER’S CHALLENGE TO THE
WARRNTLESS ENTRY OF A PRIVATE HOME
PRESENTS SIGNIFICANT ISSUES
WHETHER, CONSISTENT WITH THE
SECOND AMENDMENT RIGHT TO BEAR
ARMS, THE OWNERSHIP OR PURCHASE OF
A FIREARM CONSTITUTES JUSTIFICATION
FOR A WARRANTLESS SEARCH, AND
REGARDING WHAT MISINFORMATION
CONSTITUTES
“OBJECTIVELY
REASONABLE” GROUNDS FOR BELIEVING
THAT SOMEONE IN THE HOUSE IS AT RISK
FOR IMMINENT PHYSICAL INJURY . . . . . . 16

v
A. The Warrantless Invasion Of Kyle’s Home
Implicates The Most Fundamental
Protections Of The Fourth Amendment . . . . 16
B. The Officers’ Claimed Belief That Kyle Was
Holding His Mother Hostage And
Threatening Her Safety With A Weapon Has
No Basis In Fact . . . . . . . . . . . . . . . . . . . . . . 17
C. This Case Illustrates The Role of Magistrates
In Determining Whether Entry is Justified. 19
D. The Two Concerns Expressed To The Police
By Collin - - - the Retention of His Cell Phone
And Kyle’s Mental Well-Being - - - Do Not
Justify The Warrantless Intrusion; The
Outcome Hinges on the “Risk of Danger”
“Exigent Circumstances”. . . . . . . . . . . . . . . . 20
E. The
“Risk
of
Danger”
“Exigent
Circumstances” . . . . . . . . . . . . . . . . . . . . . . . 23
F. Certiorari Should Be Granted To Consider
Whether, Consistent With The Second
Amendment, Information That The Decedent
“Possibly May Have Purchased A Shotgun”
Justifies A Warrantless Intrusion Into A
Home Where The Shotgun Was Never Used,
And Was Never Claimed To Have Been Used
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
G. Respondents’ Assumption That Heather
Baker Was In The House And In Danger of
Physical Harm Was False And Was Not
Based On Objective Facts . . . . . . . . . . . . . . . 28

vi
II. THE COURT OF APPEALS DECISION THAT
IT WAS NOT “EXCESSIVE FORCE” FOR
RESPONDENT DRISCOLL TO KILL KYLE
BAKER SHOULD BE REVIEWED . . . . . . . . . . 31
A. Overview . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
B. Certiorari Should Be Granted to Consider
Whether Summary Judgment is Warranted
in an Excessive Force Case Where the
Defendant’s Claim of Self-Defense is Refuted
by Scientific Objective Circumstantial
Evidence. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 38
APPENDIX
Appendix A Opinion and Judgment in the United
States Court of Appeals for the Sixth
Circuit
(August 29, 2019) . . . . . . . . . . . . . App. 1
Appendix B Opinion
and
Order Granting
Defendants’ Motion for Summary
Judgment and Judgment in the
United States District Court, Eastern
District of Michigan, Southern Division
(September 24, 2018) . . . . . . . . . App. 26

vii
TABLE OF AUTHORITIES
Cases
Adams v Metiva,
81 F3d 375 (6th Cir. 1994) . . . . . . . . . . . . . . . . . 34
Baker v City of Trenton,
2018 U.S. Dist. LEXIS 22699; 2018 WL 9619323
(ED Mich, 2018) . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Bletz v Gribble,
641 F3d 743 (6th Cir. 2011) . . . . . . . . . . . . . . . . 35
Brandenburg v Cureton,
882 F2d 211 (6th Cir. 1989) . . . . . . . . . . . . . 34, 25
Brigham City Utah v Stuart,
547 US 398 (2006). . . . . . . . . . . . . . . . . . . . . 21, 28
Cady v Dombrowski,
413 US 433 (1973). . . . . . . . . . . . . . . . . . . . . . . . 21
Chappell v City of Cleveland,
583 F3d 901 (6th Cir. 2009) . . . . . . . . . . . . . 35, 36
Dickerson v McClellan,
101 F3d 1151 (6th Cir. 1996) . . . . . . . . . . . . . . . 35
District of Columbia v Heller,
554 US 570 (2008). . . . . . . . . . . . . . . . . . . . . . . . 27
Gould v Davis,
165 F3d 265 (4th Cir 1998). . . . . . . . . . . . . . . . . 27
Gradisher v City of Akron,
794 F. 3d 574 (6th Cir. 2015) . . . . . . . . . . . . . . . 29

viii
Graham v Connor,
490 U.S. 386 (1989). . . . . . . . . . . . . . . . . . . . 31, 32
Groh v Ramirez,
540 US 551 (2004). . . . . . . . . . . . . . . . . . . . . . . . 20
Groman v Township of Manalapan,
47 F3d 628 (3rd Cir. 1995) . . . . . . . . . . . . . . 34, 35
Grove v Wallace,
2016 U.S. Dist. LEXIS 174857
(WD Mich, 2016) . . . . . . . . . . . . . . . . . . . . . . . . . 25
Hopkins v Bonvicino,
573 F3d 752 (9th Cir.). . . . . . . . . . . . . . . . . . . . . 19
Hunsberger v Wood,
570 F3d 546 (4th Cir. 2009) . . . . . . . . . . . . . . . . 21
Johnson v United States,
333 US 10 (1948). . . . . . . . . . . . . . . . . . . . . . . . . 19
Kentucky v King,
563 US 452 (2011). . . . . . . . . . . . . . . . . . . . . . . . 24
Maddox v City of Standpoint,
2017 U.S. Dist. LEXIS 161596
(DC Idaho, 2017) . . . . . . . . . . . . . . . . . . . . . . . . . 37
Ex Parte Martin,
248 Mich 512; 227 NW 754 (1929) . . . . . . . . . . . 21
McInerney v King,
791 F3d 1224 (10th Cir. 2015) . . . . . . . . . . . . . . 30
Michigan v Tyler,
436 US 499 (1978). . . . . . . . . . . . . . . . . . . . . . . . 21

ix
Nelms v Wellington Way Apartments, LLC,
513 F. App’x 541 (6th Cir. 2013) . . . . . . . . . . . . . 29
Osborne v Harris County,
97 F Supp 3d 911 (Tex Dist Ct, 2015) . . 24, 25, 31
Payton v New York,
445 US 573 (1980). . . . . . . . . . . . . . . . . . . . . 17, 20
People v Ovieda,
7 Cal 5th 1034, 1043 (Cal Sup Court, 2019) . . . 31
Sample v Bailey,
409 F3d 689 (6th Cir. 2005) . . . . . . . . . . . . . . . . 35
Sanchez v Gomez,
2017 U.S. Dist. LEXIS 141981
(WD Tex. 2017) . . . . . . . . . . . . . . . . . . . . . . . . . . 31
Scozzari v City of Clare,
723 F Supp 2d 945 (ED Mich, 2010), affirmed,
Scozzari v Miedzianowski, 454 Fed Appx 455
(6th Cir. 2012) . . . . . . . . . . . . . . . . . . . . . . . . . . . 36
Silverman v United States,
365 US 505 (1961). . . . . . . . . . . . . . . . . . . . . . . . 17
Smith v Cupp,
430 F3d 766 (6th Cir. 2005) . . . . . . . . . . . . . . . . 35
Smith v Township of Hemet,
394 F3d 689 (9th Cir. 2005) . . . . . . . . . . . . . . . . 34
Tennessee v Garner,
471 U.S. 1 (1985). . . . . . . . . . . . . . . . . . . . . . . . . 31
U.S. v Moore,
91 F3d 96 (10th Cir. 1996) . . . . . . . . . . . . . . . . . 27

x
United States v Brown,
230 F Supp 3d 513 (MD La, 2017) . . . . . . . . . . . 30
United States v Calhoun,
236 F Supp 2d 537 (DC Conn, 2017) . . . . . . . . . 31
United States v Delgado,
701 F3d 1161 (7th Cir. 2012) . . . . . . . . . . . . . . . 30
United States v Karo,
468 US 705 (1984). . . . . . . . . . . . . . . . . . . . . . . . 20
United States v Washington,
573 F3d 279 (6th Cir. 2009) . . . . . . . . . . . . . . 3, 31
US v Marts,
986 F2d 1216 (8th Cir. 1993) . . . . . . . . . . . . . . . 27
Welsh v Wisconsin,
466 US 740 (1984). . . . . . . . . . . . . . . . . . . . . . . . 20
Statutes
28 USC §1254(1). . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
28 USC §1291 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 USC §1331 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 USC §1343 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
42 USC §1983 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 13
MCL 330.1401(1)(a) . . . . . . . . . . . . . . . . . . . . . . . . . 22
MCL 330.1403 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

xi
Other Authorities
Second Amendment . . . . . . . . . . . . . . . . . . . . . . . . . 27
Fourth Amendment . . . . . . . . . . . . . . . . . . . . . passim
Fifth Amendment . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Fourteenth Amendment. . . . . . . . . . . . . . . . . . . . 2, 13
F. R. Civ. P. 56 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
F. R. Civ. P. 56(c) . . . . . . . . . . . . . . . . . . . . . . . . . . . 34
Sup. Ct. R. 13.1. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Trenton General Order #29, §VII(c)(6) . . . . . . . . . . 12

1
PETITION FOR WRIT OF CERTIORARI
Heather Baker, Personal Representative of the
Estate of Kyle Baker, Deceased, respectfully petitions
for a writ of certiorari to review the judgment of the
United States Court of Appeals for the Sixth Circuit in
this case.
OPINIONS BELOW
This Petition for Writ of Certiorari seeks review of
the published Opinion of the United States Court of
Appeals for the Sixth Circuit, 936 F3d 523 (6th Cir.
2019) (App., infra).
That decision affirmed the
summary judgment granted by the Untied States
District Court for the Eastern District of Michigan.
The District Court Opinion and Order (App. infra) is
reported electronically as Baker v City of Trenton, 2018
U.S. Dist. LEXIS 22699; 2018 WL 9619323 (ED Mich,
2018).
JURISDICTION
This suit alleges that Respondents, acting under
color of state law, denied Petitioner rights arising
under the Constitution of the United States. The
District Court had subject matter jurisdiction under 28
USC §1331 and 28 USC §1343.
After the District Court Opinion and Order granting
summary judgment to all Defendants-Respondents,
Petitioner filed a timely Notice of Appeal, invoking the
jurisdiction conferred on the Court of Appeals by 28
USC §1291. Following briefing and oral argument, the
Court of Appeals issued its published opinion of
August 29, 2019.

2
Petitioner relies on the jurisdiction conferred on this
Court by 28 USC §1254(1), “Cases in the court of
appeals may be reviewed by the Supreme Court by...
writ of certiorari granted upon the petition of any party
to any civil or criminal case, before or after rendition of
judgment or decree.” This Petition, filed within 90
days of the Court of Appeals Judgment, is timely under
this Court’s Rule 13.1.
CONSTITUTIONAL PROVISIONS INVOLVED
Fourth Amendment:
The right of the people to be secure in their persons,
houses, papers, and effects, against unreasonable
searches and seizures, shall not be violated, and no
Warrants shall issue, but upon probable cause,
supported by Oath or affirmation, and particularly
describing the place to be searched, and the persons or
things to be seized.
Fourteenth Amendment, §1:
All persons born or naturalized in the United
States, and subject to the jurisdiction thereof, are
citizens of the United States and of the state wherein
they reside. No state shall make or enforce any law
which shall abridge the privileges or immunities of
citizens of the United States; nor shall any state
deprive any person of life, liberty, or property, without
due process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.

3
STATEMENT OF THE CASE
Overview
On May 28, 2015, eighteen year old Kyle Baker was
shot and killed by Trenton, Michigan police officer
Mark Driscoll at the home where Kyle stayed with his
father, Tim Baker, and his stepmother.1 Driscoll and
three other Trenton police officers entered the home
without a warrant in response to a report by Collin
Matthieu, Kyle’s best friend. Collin had expressed to
the Trenton police dispatcher his concern for Kyle’s
mental well-being, noting that Kyle would not return
Collin’s cell phone.
Kyle’s mother, Heather Baker, sometimes referred
to as Ms. Baker, was appointed personal representative
of her son’s estate. She filed this suit under 42 USC
§1983, alleging that Respondents, acting under color of
state law, had infringed on Kyle’s constitutional rights
by the warrantless entry and use of excessive force.
The district court granted Respondents summary
judgment under F. R. Civ. P. 56 (“no genuine dispute as
to any material fact”) (App. 26 - App. 75). The Court of
Appeals for the Sixth Circuit affirmed, 936 F3d 523 (6th
Cir. 2019) (App. 1 – App. 25). Even though Kyle’s
mother was at work in Detroit that afternoon; even
though Collin told the dispatcher that Kyle was in
contact with his mother by phone and did not say that

1

The home in question was actually owned by Kyle’s step-mother.
Kyle sometimes stayed there overnight. There is no dispute that
Kyle’s Fourth Amendment rights apply. United States v
Washington, 573 F3d 279, 283 (6th Cir. 2009).

4
Kyle threatened his mother; even though Collin did not
tell the dispatcher that Ms. Baker was present; even
though the dispatcher did not say that Ms. Baker was
at the house; and even though the officers saw and
heard nothing to suggest that Ms. Baker was at the
house, the unwarranted entry was held lawful because
the officers “could have reasonably believed that Mr.
Baker was inside with Kyle, that he was armed in some
fashion, with the knife or the shotgun, or both, and
that he was threatening her” (936 F3d at 531). In
reaching this conclusion, the Court considered
information that Kyle “possibly may have purchased a
shotgun last week”2 and that there was a knife in the
house3 as justification for the intrusion (936 F3d at
532).
The appellate court also upheld dismissal of the
excessive force claim based on the account of Driscoll4,
first provided one month after the killing. He claimed
that he shot Kyle firing upward with his right hand,
from a prone position, with Kyle standing over him
after Kyle struck the officer with a lawn mower blade.
To refute this account, Plaintiff offered the autopsy

2

After Kyle died, his father learned that, on his 18th birthday, Kyle
bought a shotgun to go hunting with his friend Herman. The
shotgun was later found under the mattress of Kyle’s bed, unused,
with the receipt.
3

The knife was a folding pocket knife with a 4 inch blade which
Kyle had displayed to Collin with the blade unopened.
4

The other three officers claimed not to have seen the shooting,
and Kyle died from his wounds before he could explain his version
of the events.

5
report showing that the trajectory of the bullet that
took Kyle’s life was travelling downward from Kyle’s
right to left (Driscoll’s left to right), without the gun
powder residue found in close range shootings.
Petitioner seeks a writ of certiorari to review these
rulings.
Background Facts5
Kyle Baker (“Kyle”) was a high school senior at
Trenton High School, about five days away from
graduation. Kyle turned 18 on May 2, 2015 and had
been accepted at college. In addition to his studies,
Kyle worked delivering pizzas and starting a
landscaping company.
Kyle’s parents, Heather Baker and Tim Baker, were
divorced. Kyle was welcome at both parents’ homes,
typically spending weekdays at the home of his father
and step-mother and weekends with his mother.
About one week before, Kyle began to act
differently. He appeared fearful of others and distant,
wanting to be alone. Kyle told his father that he had
taken LSD on “senior skip day” and was apparently
suffering the after effects.6
5

As the Court of Appeals correctly observed, for summary
judgment purposes, disputed facts are viewed favorably to the nonmovant (936 F3d at 526, fn. 1). This Statement of the Case recites
the evidence in that light.
6

Toxicology testing after Kyle’s death revealed no traces of LSD,
but traces of THC, the active chemical in marijuana. Fentanyl
administered at the hospital after he was shot also showed up on
toxicology testing.

6
On May 28, 2015, during fourth hour, Kyle was sent
to the office of the principal, Dr. Doyle, because he was
acting unusual. A police officer, Jake Davis, was
summoned. As Dr. Doyle and officer Davis were
talking, Kyle left school on his skateboard. No effort
was made to detain Kyle. As Mr. Baker learned, “The
police did a wellness check on him and they did not
arrest him at that time”. Driscoll was aware before the
killing that officer Davis had been dispatched to the
school for a student acting strange and had not
arrested the student, but didn’t know for sure that this
was Kyle.
The Afternoon Of May 28, 2015
After fifth hour, Collin texted Kyle’s mother,
informing her of what happened. He also had a phone
conversation with her.
That afternoon, Kyle’s father, a local truck driver,
and Ms. Baker, his mother, received phone calls from
Dr. Doyle. Ms. Baker was called at her workplace in
downtown Detroit. Dr. Doyle assured her that Kyle
was not violent. An appointment was made for Kyle
and his parents to meet with school authorities the
next morning.
When Mr. Baker learned what
happened at school that day, he instructed Kyle, “when
you get home you are to stay home”.
That afternoon, Heather Baker called Kyle, from
work, and he finally answered. Kyle said he didn’t
know why the police had been summoned to school.
Kyle ended the conversation by telling his mother, “I
love you”. When Kyle didn’t respond to a later call,
Heather texted Collin expressing concern for her son.

7
After school, Collin looked for Kyle, first at Mr.
Baker’s house, then at a park Kyle frequented, then
back at the Baker home. Collin entered and talked
with Kyle who was alone in the basement, where Kyle
and his friends usually met, as it had a pool table,
television, and weightlifting equipment. Collin showed
Kyle text messages from Heather expressing her
concern, then called her and handed his cellphone to
Kyle.
When Collin wanted the phone back, Kyle would not
return it.7 Kyle displayed a pocketknife, one of many
that he collected, but did not open the four inch blade.
Collin testified that he never heard Kyle threaten to
hurt his mother, himself, or anyone else that afternoon.
Kyle did not express any problem with his mother and
was not angry with her. Throughout this time, Kyle’s
mother was not there; Kyle and Collin were the only
ones in Kyle’s home.
When he left, Collin went to the Trenton police
station with two concerns: Kyle wouldn’t give the
phone back and Collin wanted the police to check on
Kyle’s well-being. In an unrecorded three minute
interview, he spoke with Kelsey Pare, the dispatcher.
According to the deposition testimony, Collin, “told her
everything that happened” and Pare informed
Respondents “exactly what I was told” by Collin. What
was this?

7

Collin believes that Kyle retained the phone so Collin couldn’t call
the police. Kyle also may have wanted to keep it to review the text
messages between his mother and Collin.

8
“I told her that I went to his house because his
mom called, and I was texting her and then gave
him the phone when I went downstairs and seen
him with the frying pan, I gave him the phone.
He was talking to her on the phone. He was
reading the texts, and that’s when he wouldn’t
give me my phone back and that when I left
because if I was - - when I was getting closer to
him, he had the knife, so I didn’t know if he was
going to do anything. That when I left and went
to the police station.”
After providing this information, Collin remained at
the station, available to provide further information,
until after Kyle was shot. The officers were aware that
Collin remained in the lobby.
Pare issued a dispatch that was responded to by
four Trenton police officers: Respondents Driscoll,
Arnoczki, Lyons, and Biniarz:
“We have a teenage male in the lobby here,
states that a teenager there named Kyle Baker
left school today. When he went to go check on
him he states that he had a knife in his home.
He was threatening towards his mother. He
also stole his cell phone. He left after he pulled
the knife out. As far as he knows he’s still at the
residence. We also have word he possibly may
have purchased a shotgun last week. Try and
make contact on the house phone but its just
going busy.”

9
As the officers separately drove to Kyle’s house,
Pare spoke with them on the police radio. The relevant
pre-shooting information was:
“Caller came into station to report that he went
to check on a friend that had left school today
and when he did, his friend (Kyle Christian
Baker, 18 yo w m) was threatening and yelling
at his mother. He tried to talk to him and pulled
a knife out and took his cell phone. The sub[ject]
then went upstairs”; ‘The caller left after the
subj[ect] went upstairs and came to the
[station]’; ‘Sgt. Cheplick made several attempts
to contact the house phone, busy line [.]
Attempted to make contact by cell as well. No
answer.’”
The Warrantless Entry Into Kyle’s Home
The officers did not contact Ms. Baker at work, like
Doyle had done. They did not ask anything further
from Collin, who sat on the bench at the police station.
Nor did they ask the neighbor, who was standing next
door, whether she heard or saw anything unusual.
They did not ask permission from anyone to enter the
house or attempt to obtain a search or arrest warrant.
They did not see or hear anything noteworthy before
they all entered the Baker home through the unlocked
back door, after receiving no response to knocking on
the door. Each was armed with a flashlight, gun, extra
ammunition, taser or pepper spray, and two sets of
handcuffs.

10
Officer Biniarz imagined he heard the dispatcher
say that Kyle was holding his mother against her will
with a knife, admitting “I didn’t have any evidence that
she was there”. Pare never told the officers that Ms.
Baker was at the home, and Driscoll agrees that Pare
did not say one way or the other. Biniarz believed they
could take Kyle into custody to get a petition for
hospitalization. Driscoll also considered committing
Kyle to a mental health facility involuntarily.
However, Chief of Police Voss testified that Trenton
police did not take people into custody for a welfare
check, unless “they were guilty of or had committed a
crime”.
The other officers also claimed to believe that Ms.
Baker was in the house and Kyle was threatening her
with a knife. At the scene, however, they reassured
Kyle that, “you’re not in any trouble”.
After the officers entered the house, but before Kyle
was shot, Mr. Baker received a call from Officer
Cheplick,8 advising that officers were at his house.
Cheplick asked where Kyle’s mother was, and Mr.
Baker informed him, “I don’t know, but I would assume
she’s at work at the Michigan Conference of Teamsters
in Detroit”. For unknown reasons Respondents did not
seek, and Cheplick did not provide, this information to
the officers at the Baker house. As Mr. Baker was
returning to his home from work, about 5 minutes
away, Cheplick called a second time advising him to go
to the hospital.

8

Cheplick knew that Pare had discussed the situation with Collin.
He remained at the station and continued to follow from there.

11
At the Baker house, officers Lyons and Biniarz
found nothing upstairs indicative of wrong-doing - - no
person, no weapon, no blood, nothing to indicate Kyle’s
mother was in the house. They apparently did not call
out to Mrs. Baker or contact officer Cheplick.
Arnoczki and Driscoll stationed themselves at the
top of the stairs to the basement. At the bottom,
holding a lawn mower blade, Kyle made it clear that
they were not welcome. The officers would not leave.
They asked Kyle where his mother was and he told
them, truthfully, that he did not know. The officers
would not leave unless Kyle spoke with them, even
though Kyle told them he didn’t want to talk.9 Kyle’s
anger grew with the police presence.
At one point, Kyle invited the officers to come down
to the basement. Kyle did not verbalize an intent to
injure, but they refused. They insisted that he drop the
lawnmower blade and come up the stairs.
Kyle then took about two steps up the stairs as
requested, carrying the lawn mower blade. Lyons
tasered Kyle with a taser having a 25 foot range. Kyle
was temporarily stunned, stepped back down the
stairs, and became angrier. Lyons and Biniarz each
tasered Kyle again.

9

The Complaint alleges a Fifth Amendment violation when the
officers stayed because Kyle declined to speak to them, but
Petitioner did not pursue that claim.

12
With Kyle tasered three times, Driscoll started
down the stairs, announcing, “I’m going down and just
jump on him”. Kyle stood up and started back up the
stairs.
The other officers retreated to safety on the main
floor, as suggested by Trenton General Order #29,
§VII(c)(6). That section discusses the “Reactionary
Gap”, by which officers create a safety zone by
“disengag[ing] to create distance” when the distance
between the officer and suspect is six feet or more.
Officers Arnoczki, Lyons, and Biniarz claim that
they did not see Driscoll shoot Kyle or Kyle strike
Driscoll. When Lyons handcuffed Kyle after the
shooting, the blade was nowhere in the immediate
area.
The Shooting
Contrary to ordinary procedure requiring a prompt
report, Driscoll waited over one month to provide his
version of the shooting. That statement indicated that
he had been cut by the lawnmower blade.
According to his testimony, Driscoll walked up the
stairs backward, then he fell, with his legs partly on
the top stair or landing and partly on the kitchen floor.
Kyle was seven feet away, and Driscoll fired upward
with his right hand.
The Aftermath
Driscoll was treated for a hand wound, while Kyle
was taken by ambulance to the hospital, where doctors
unsuccessfully tried to save his life. The autopsy report

13
found no gunpowder stippling (the residue found with
close quarters shooting). The trajectory of the shot was
downward, and from Kyle’s right to left.
A Michigan State Police investigation exonerated
Driscoll from criminal liability. The investigating
officer, Sgt. White, had already declared it as “selfdefense” two hours after the shooting, without talking
to the officers.
The Complaint
Petitioner filed suit on June 21, 2016. Invoking 42
USC §1983, she claims that Trenton and its officers,
acting under color of state law, violated Kyle’s
constitutional rights. The suit alleges that the officers
violated the Fourth Amendment and Fourteenth
Amendment by conducting a warrantless intrusion into
Kyle’s home and that Driscoll used excessive force in
killing Kyle instead of leaving the home as requested or
safely disengaging.10
The Rulings Below
On September 24, 2018, Hon Marianne Battani,
United States District Court Judge for the Eastern
District of Michigan, issued her Opinion and Order
granting Defendants’ Motion for Summary Judgment

10

The Complaint included a claim of municipal liability which the
lower courts dismissed on the basis that there was no
constitutional violation by Trenton’s employees. As that rationale
depends on unconstitutional conduct by the individuals, it is not
addressed separately. Likewise, since the appellate court did not
decide whether qualified immunity applied, this Petition focuses
on the issues decided by the Court of Appeals.

14
App. 26 – App. 75). The Court concluded that the facts
known to the officers “gave rise to an objectively
reasonable belief that someone in the Baker’s home
was in need of immediate aid or faced imminent injury”
(App. 42), justifying a warrantless entry under the
“community caretaker” exception to the warrant
requirement, believing that “Defendant officers here
relied on the first-hand account of Kyle Baker’s friend,
Collin Mathieu” (App. 45), “Defendant police officers
acted on the basis of an eyewitness account” (App. 55).
The district court also granted summary judgment
on the excessive force claim. In her view, Driscoll’s
account was to be accepted because the autopsy report - - inconsistent trajectory and direction of the bullet
and lack of gunpowder residue - - - as well as Driscoll’s
claim to have been struck with the lawn mower blade
from seven feet away, were not to be considered
because “these claimed inconsistencies are not
supported by the report or testimony of an expert in
ballistics or crime scene reconstruction” (App. 63).
The Court of Appeals did not adopt the district
court’s “community caretaker” justification for the
entry. Instead, the Court focused on a “risk of danger
to the police or others” exception to the Fourth
Amendment’s warrant and probable cause
requirements (936 F3d at 530-531):
“Under the exigent circumstances exception
concerning the threat of violence to officers or
others, police officers ‘may enter a home without
a warrant to render emergency assistance to an
injured occupant or to protect an occupant from
imminent injury.’” Goodwin v. City of

15
Painesville, 781 F.3d 314, 332 (6th Cir. 2015)
(quoting Schreiber v. Moe, 596 F.3d 323, 329–30
(6th Cir. 2010)). We use an objective test to
analyze the circumstances that gave rise to a
warrantless entry: ‘An action is “reasonable”
under the Fourth Amendment, regardless of the
individual officer’s state of mind, “as long as the
circumstances, viewed objectively, justify [the]
action.”’ Brigham City v. Stuart, 547 U.S. 398,
404 (2006) (quoting Scott v. United States, 436
U.S. 128, 138 (1978)). As applied to the dangerto-police-or-others exception, a lawful
warrantless entry requires ‘an objectively
reasonable basis for believing . . . that a person
within the house is in need of immediate aid.’
Goodwin, 781 F.3d at 332 (quoting Michigan v.
Fisher, 558 U.S. 45, 47 (2009)). More
specifically, this standard requires us to
determine whether ‘a reasonable person [would]
believe that the entry was necessary to prevent
physical harm to the officers or other persons.’
Brigham City, 547 U.S. at 402 (citation omitted)
(alteration in original).”
Applying this analysis, the Court upheld the entry:
“Based on [the information provided by the
dispatcher], they could have reasonably believed
that Ms. Baker was inside with Kyle, that he
was armed in some fashion, with the knife or
shotgun, or both, and that he was threatening
her”.

16
On the excessive force claim, the Court of Appeals
analysis tracked that of the district court. It concluded
that all reasonable jurors would be impelled to
conclude that it was not “excessive force” for Driscoll to
kill Kyle.
REASONS FOR GRANTING THE PETITION
I. PETITIONER’S CHALLENGE TO THE
WARRNTLESS ENTRY OF A PRIVATE HOME
PRESENTS SIGNIFICANT ISSUES
WHETHER, CONSISTENT WITH THE
SECOND AMENDMENT RIGHT TO BEAR
ARMS, THE OWNERSHIP OR PURCHASE OF
A FIREARM CONSTITUTES JUSTIFICATION
FOR A WARRANTLESS SEARCH, AND
REGARDING WHAT MISINFORMATION
CONSTITUTES
“OBJECTIVELY
REASONABLE” GROUNDS FOR BELIEVING
THAT SOMEONE IN THE HOUSE IS AT RISK
FOR IMMINENT PHYSICAL INJURY
A. The Warrantless Invasion Of Kyle’s Home
Implicates The Most Fundamental
Protections Of The Fourth Amendment
When the four armed police officers barged through
the door, Kyle was at home, as his father directed, to
avoid interaction with others in his confused state of
mind. He had committed no crime more heinous than
taking LSD a week or so before, then retaining his
friend’s cell phone while displaying the unbladed body
of a pocket knife. “At the very core [of the Fourth
Amendment] stands the right of a man to retreat into
his own home and there be free from unreasonable

17
governmental intrusion”, Silverman v United States,
365 US 505, 511 (1961).
It is one of the most raw exercises of governmental
power over its subjects to invade a private home,
uninvited. It is as much an affront to the dignity and
privacy of a citizen today, as it was when the British
took over the homes of the Founding Fathers and their
compatriots. It is with good and enduring reason that
the Fourth Amendment, with its “warrant” and
“probable cause” requirements, strictly curtails hostile
entry into a private residence.
As this Court
emphasized in Payton v New York, 445 US 573, 585586 (1980), “physical entry of the home is the chief evil
against which the Fourth Amendment is directed”.
This case strikes at the very heart of the Fourth
Amendment.
B. The Officers’ Claimed Belief That Kyle Was
Holding His Mother Hostage And
Threatening Her Safety With A Weapon
Has No Basis In Fact
The district court below found the warrantless entry
justified by “The Facts Known To The Police Officers”
(App. 39). There were no “facts” at all “known” to the
officers when they arrived at the Baker home. They
had no first-hand knowledge of the “facts”. The actual
“facts” were that:
• At school that day, Kyle was observed to be
disoriented and withdrawn.
• As the principal stated before the police arrival,
Kyle was not violent in that condition.

18
• The Trenton police officer who observed Kyle at
school did not think it appropriate or necessary
to detain Kyle.
• Ms. Baker was at work in Detroit, where she
had been called by Dr. Doyle and from where she
communicated with Kyle.
• The communication between Ms. Baker and
Kyle or Collin was all by telephone.
• Ms. Baker was never at her ex-husband’s home
that day.
• Collin’s testimony is inconsistent about whether
Kyle’s statements to his mother were
“threatening”, but at most any threats were
verbal and made outside her presence.
• The knife that Kyle showed Collin had a fourinch blade that was folded and the body had
been displayed to deter Collin from trying to
retrieve the phone; the blade was not opened
and no effort was made to use it as a weapon.
• Apart from the loss of his phone, Collin
expressed to the dispatcher his concern that
Kyle was disoriented and not thinking straight,
possibly as an after effect of a hallucinogen
taken days before; he did not express concern for
Heather Baker’s physical well-being.
• Collin believed that Kyle may have (legally)
purchased a shotgun, but nothing suggested that
it had ever been used to shoot game or to
threaten anyone.

19
C. This Case Illustrates The Role of
Magistrates In Determining Whether Entry
is Justified
With no basis in fact for the entry, the lower courts
excused Respondents’ conduct because they didn’t
know the actual facts and did not make the effort to
take the simple steps that would clarify any doubt,
such as talking to Collin, who remained at the police
station, or asking Pare to do so, or calling Heather at
work, as Dr. Doyle had. In Hopkins v Bonvicino, 573
F3d 752, 765 (9th Cir.), the Court observed, “If police
officers otherwise lack reasonable grounds to believe
there is an emergency, they must take additional steps
to determine whether there is an emergency that
justifies entry in the first place”. Petitioner accepts the
principle that the constitutionality of an entry is judged
by the information available to the officer, and that
there is no constitutional duty to investigate before
taking action. But one may fairly question the
decisions below which authorize intrusions based on
ignorance and the unwillingness to make readily
available efforts to find out the actual facts - - - a sort
of “shoot first and ask questions later” approach to the
Fourth Amendment. The danger with police officers
arrogating to themselves the role of deciding whether
they can enter another’s home uninvited was identified
by this Court in Johnson v United States, 333 US 10,
13-14 (1948):
“The point of the Fourth Amendment which
often is not grasped by zealous officers is not
that it denies law enforcement the support of the
usual inferences which reasonable men draw

20
from evidence.
Its protection consists in
requiring that those inferences be drawn by a
neutral and detached magistrate, instead of
being judged by the officer engaged in the often
competitive enterprise of ferreting out crime.”
It is for these reasons that searches and seizures
inside a home without a warrant are presumptively
unreasonable. Payton; Groh v Ramirez, 540 US 551,
564 (2004). This case presents the Court with the
opportunity to reaffirm protections provided by the
Fourth Amendment, as historically construed, and to
clarify what is required to overcome the presumption.
D. The Two Concerns Expressed To The
Police By Collin - - - the Retention of His
Cell Phone And Kyle’s Mental Well-Being - - Do Not Justify The Warrantless Intrusion;
The Outcome Hinges on the “Risk of
Danger” “Exigent Circumstances”
One of Collin’s concerns was that Kyle had his cell
phone and he wanted it back. This was a subject of
both dispatch notifications, “He also stole his cell
phone”, “took his cell phone”. As an attempt to recover
the phone, or investigate the reported theft, or arrest
Kyle for having taken the phone, the intrusion is
plainly violative of the Fourth Amendment. Even with
probable cause, a warrantless search or arrest for a
minor offense is unlawful in the absence of an
emergency. United States v Karo, 468 US 705, 715
(1984); Welsh v Wisconsin, 466 US 740 (1984).

21
The second concern expressed by Collin was Kyle’s
mental stability, a theme seized by Respondents who
entered the house with a view toward taking Kyle into
custody for involuntary mental health treatment, the
so-called “community caretaker” function relied on by
the District Court. That doctrine has evolved through
cases such as Cady v Dombrowski, 413 US 433, 441
(1973) (search of vehicle, left behind by police officer, to
retrieve a firearm); Michigan v Tyler, 436 US 499
(1978) (firefighters entering a burning building to put
out the fire and investigate its origin); and Brigham
City Utah v Stuart, 547 US 398 (2006) (police entering
home during 3:00 a.m. brawl after seeing blows struck).
This rationale looks to whether the police were
executing a community service program [“an inquiry
into programmatic purpose”, Brigham City, 547 US at
405]. This “community caretaker” analysis “is in no
sense an open-ended grant of discretion that will justify
a warrantless search whenever an officer can point to
some interest unrelated to the detection of crime”.
Hunsberger v Wood, 570 F3d 546, 554 (4 th Cir. 2009).
Even if the police had known of Kyle’s suspected use
of hallucinogens or disorientation at school - - and the
dispatches do not mention either - - this would not
justify the intrusion. Under Michigan’s Mental Health
Code, individuals can only be taken into custody for
involuntary mental health treatment by compliance
with statutory procedures, MCL 330.1403. See also Ex
Parte Martin, 248 Mich 512, 515; 227 NW 754 (1929);
M. Civ. J. I. 171.02.

22
And, “involuntary mental health treatment” is
defined as “court-ordered hospitalization...”. The law
does not permit police officers to take people into
involuntary custody without a warrant or court order.
As Chief of Police Voss acknowledged, it is not the
program in Trenton to take people into custody for
suspected hallucinations and the like.
Even with lawful process, only a “person requiring
treatment” may be subjected to involuntary seizure.
That term is defined in MCL 330.1401(1)(a):
“An individual who has mental illness, and who
as a result of that mental illness can reasonably
be expected within the near future to
intentionally or unintentionally seriously
physically injure himself, herself, or another
individual, and who has engaged in an act or
acts or made significant threats that are
substantially supportive of the expectation.”
Kyle had no “mental illness” at all, only temporary
drug-induced disorientation. He could not “reasonably
be expected within the near future to... seriously
physically injure himself... or another individual”. He
hurt no one before the police invaded his home, and the
school principal confirmed he was not violent. He did
nothing “substantially supportive” of any expectancy of
imminent violence.
The claimed “community
caretaker” justification for entering the home for Kyle’s
psychological “well-being” is untenable. Certiorari
should be granted to make it clear that the Fourth
Amendment does not permit warrantless intrusions to
take into custody a suspect displaying signs of mental

23
disturbance or the influence of drugs in the absence of
imminent danger of injury.
E. The
“Risk
of
Circumstances”

Danger”

“Exigent

Thus, the only “exigent circumstances” potentially
applicable are “a risk of danger to the police or others”
if an immediate entry is not made. The Court below
expressed what was required to trigger this exception
to the warrant requirement and overcome the
presumption that the warrantless entry violated the
Fourth Amendment (936 F3d at 530-531):
“Exigent circumstances are situations where
real[,] immediate[,] and serious consequences
will certainly occur if the police officer postpones
action to obtain a warrant.” Thacker v. City of
Columbus, 328 F.3d 244, 253 (6th Cir. 2003)
(internal quotation marks and citations
omitted).”
* * *
“Under the exigent circumstances exception
concerning the threat of violence to officers or
others, police officers ‘may enter a home without
a warrant to render emergency assistance to an
injured occupant or to protect an occupant from
imminent injury.’” Goodwin v. City of
Painesville, 781 F.3d 314, 332 (6th Cir. 2015)
(quoting Schreiber v. Moe, 596 F.3d 323, 329–30
(6th Cir. 2010)). We use an objective test to
analyze the circumstances that gave rise to a
warrantless entry: ‘An action is “reasonable”
under the Fourth Amendment, regardless of the

24
individual officer’s state of mind, “as long as the
circumstances, viewed objectively, justify [the]
action.”’ Brigham City v. Stuart, 547 U.S. 398,
404 (2006) (quoting Scott v. United States, 436
U.S. 128, 138 (1978)). As applied to the dangerto-police-or-others exception, a lawful
warrantless entry requires ‘an objectively
reasonable basis for believing . . . that a person
within the house is in need of immediate aid.’
Goodwin, 781 F.3d at 332 (quoting Michigan v.
Fisher, 558 U.S. 45, 47 (2009)). More
specifically, this standard requires us to
determine whether ‘a reasonable person [would]
believe that the entry was necessary to prevent
physical harm to the officers or other persons.’
Brigham City, 547 U.S. at 402 (citation omitted)
(alteration in original).”
Kyle posed no “risk of danger to the police” while
alone in the house. Any “risk of danger” arose because
of the entry, not as a reason why entry was required.
“Although exigent circumstances may justify entry,
police may not create the exigency by engaging or
threatening to engage in conduct that violates the
Fourth Amendment.” Osborne v Harris County, 97 F
Supp 3d 911, 927 (Tex Dist Ct, 2015); Kentucky v King,
563 US 452 (2011).
Respondents argued, and the Court of Appeals
agreed, that, the circumstances, “viewed objectively”
gave rise to “an objectively reasonable basis for
believing that [Heather Baker] [was] in need of
immediate aid”, so “the entry was necessary to prevent
physical harm to [her]”. In the view of the Court of

25
Appeals, the information known to the police when
they arrived at the Baker home “objectively” supported
the belief, “that Ms. Baker was inside with Kyle, that
he was armed in some fashion, with the knife or the
shotgun, or both, and that he was threatening her” (936
F3d at 531).11 These three components, “armed”, “Ms.
Baker... inside”, and “threatening”, were what the
Court of Appeals deemed objective evidence that Kyle’s
mother was in the home and that “real, immediate and
serious consequences [would] certainly occur” without
immediate entry.

11

The Court also addressed what the officers learned at the scene - - that the phone line was busy and no one answered the door - - as not “dispel[l]ing them of the notion that Ms. Baker was inside”
(936 F3d at 532). The Court said nothing about other observations
at the home, such as the neighbor who mentioned nothing
abnormal, no screams or calls for help, no signs of blood, no
indication of Ms. Baker’s car, no signs of struggle, and Kyle’s
forthright statement that he didn’t know where his mother was.
In all events, a busy phone line and declining to answer the
door to several police officers is hardly indicative that Heather
Baker was in danger of physical violence. Consider the
constitutional implications of that analysis: “Let us in, or your
failure to do so allows us to break the door down”. See Osborne v
Harris County, 97 F Supp 3d 911, 927 (Tex. Dist. Ct., 2015); Grove
v Wallace, 2016 U.S. Dist. LEXIS 174857 (WD Mich, 2016).

26
F. Certiorari Should Be Granted To Consider
Whether, Consistent With The Second
Amendment, Information That The
Decedent “Possibly May Have Purchased A
Shotgun” Justifies A Warrantless Intrusion
Into A Home Where The Shotgun Was
Never Used, And Was Never Claimed To
Have Been Used
A major factor in the outcome reached by the lower
courts was the dispatcher’s statement that, “We also
have word he possibly may have purchased a shotgun
last week”. The shotgun remained, unused, under the
mattress of Kyle’s bed. Collin never indicated that it
had ever been used at all. The dispatcher said nothing
about use of a shotgun, only that “he possibly may have
purchased” it. The lower court’s characterization of
“possibly may have purchased” as meaning that Kyle
was “armed” was central to the finding that Heather
Baker (if she had been present) was at risk of
“imminent injury” or “in need of immediate aid”
making entry “necessary to prevent physical harm”.
The “possibly may have” standard is no standard at
all. In common parlance, “anything is possible”.
“Possibly may have” is incapable of objective
verification or refutation, proof or disproof. The
replacement of familiar Fourth Amendment standards
like “probable cause” and “reasonable suspicion” with
“possibly may have” is alarming.
It would be
appropriate to grant review to determine whether the
Fourth Amendment permits home invasions on the
basis of “possibly may have”.

27
Nor does mere purchase of a weapon indicate an
imminent risk of injury to another. Otherwise, every
lawful gun owner in the United States12 would be
subject to warrantless government searches. In view of
District of Columbia v Heller, 554 US 570 (2008),
Fourth Amendment protections are not forfeited by
exercising rights guaranteed by the Second
Amendment. As several Courts of Appeals have held,
in applying “knock and announce” laws, mere
ownership of a gun does not give rise to exigent
circumstances. US v Marts, 986 F2d 1216, 1218 (8th
Cir. 1993); U.S. v Moore, 91 F3d 96, 98 (10th Cir. 1996);
Gould v Davis, 165 F3d 265, 271 (4 th Cir 1998).
Under the approach applied below, lawful
ownership of a firearm exposes gun owners to an
“exigent circumstances” search that those who do not
exercise Second Amendment rights would be spared.
This Court should grant certiorari to review the
decision below which permits dilution of Fourth
Amendment rights as a consequence of exercising
Second Amendment rights.
The lower court’s reliance on Kyle’s ownership of a
knife as a basis for warrantless entry is not itself
constitutional in nature, but draws in question the
“imminent risk of danger” analysis. The information
known to the officers was only that Kyle owned a knife
which had been shown to Collin. There is no
information at all that Kyle possessed the knife in
Heather’s presence, or that the blade had been

12

According to Wikipedia, 393,000,000 firearms are owned by
United States civilians.

28
unfolded to Collin (who was then safely sitting at the
police station to answer any questions the officers
might have).
One may safely assume that virtually every kitchen
in America contains a knife with an exposed blade. Of
the estimated 393,000,000 firearms owned by
Americans, at least 350,000,000 must be owned by
persons who also own a knife. The sheer number of
people who would be subject to warrantless entry on
the basis of simultaneously owning both a gun and a
knife demonstrates how mere ownership of a gun,
knife, or both falls far short of satisfying the highly
individualized inquiry needed to justify a
presumptively unlawful warrantless entry into a
private residence.
Without ownership of an unused shotgun and knife
in the mix, Respondents’ argument rests on the
proposition that they had objective reason to believe
that Heather Baker was in the home, and that Kyle
had threatened her in some unspecified way, such that,
“real, immediate, and serious consequences [would]
certainly occur” (936 F3d 530) if the four officers did
not storm the Baker home.
G. Respondents’ Assumption That Heather
Baker Was In The House And In Danger of
Physical Harm Was False And Was Not
Based On Objective Facts
The “risk of danger” justification requires an
“objectively reasonable” basis. Brigham City, 547 US
at 400. A hunch or mere possibility that an occupant
needs immediate aid cannot justify warrantless entry.

29
Gradisher v City of Akron, 794 F. 3d 574, 584 (6 th Cir.
2015), quoting Nelms v Wellington Way Apartments,
LLC, 513 F. App’x 541, 545 (6 th Cir. 2013).
Respondents’ claimed belief that Ms. Baker was in
danger is belied by Ms. Pare’s testimony that she
informed Respondents “exactly what I was told” by
Collin. Collin agreed that, “I told her everything that
happened”.
The objective facts do not show “certai[n]” “real,
immediate, and serious consequences” were befalling
Ms. Baker. Those objective facts do not indicate that
Ms. Baker was at risk of imminent harm. Kyle never
threatened his mother at all. He told Ms. Pare, who
claims that she conveyed his information accurately to
the police, that Kyle spoke with his mother by
telephone and that she was not at the house. No one
with personal knowledge claimed that Ms. Baker was
at her ex-husband’s home, or that Kyle ever threatened
her with physical harm.
Ms. Pare never told
Respondents that Heather Baker was at the home.
The courts below discounted the testimony of Ms.
Pare that she told Respondents “exactly what I was
told” and considered only the content of the dispatch
communications. Even focusing exclusively on the
dispatches, there was nothing that gave rise to an
“objectively reasonable” belief that Kyle’s mother was
in imminent danger of physical harm. The only excerpt
in those communications mentioning Kyle’s mother
was that, “He was threatening toward his mother”
(followed by reference to the cell phone) and “he was
threatening and yelling at his mother” (again followed
by reference to the cell phone). There was no

30
statement regarding Heather’s whereabouts, nor was
there any indication of threatening behavior beyond
“yelling”. The “objective” information, even if it had
been true, indicated only that Kyle “yell[ed]” at his
mother, in some fashion that Collin regarded as
“threatening” in some unspecified way. Reduced to its
essence, the decision below permits a warrantless
intrusion by multiple armed police on the basis of a
second hand report that someone yelled at another (at
a distant location, over the phone) in a way that
someone regarded as “threatening”. This Court should
review a ruling that permits such an easy end run
around the Fourth Amendment and its core protection
of those in their home.
The facts of individual cases of course vary, but the
broad view of “objectively reasonable” taken by the
Sixth Circuit is far more lax than that taken by other
courts. Recent decisions which more zealously protect
Fourth Amendment values include United States v
Delgado, 701 F3d 1161 (7th Cir. 2012) (warrantless
entry to search for a possible inhabitant is
unconstitutional in the absence of evidence of any
wrongdoer or victim inside and where there were no
signs of struggle upon arrival before entry); McInerney
v King, 791 F3d 1224 (10th Cir. 2015) (where the
occupant had a history of drug and alcohol abuse, and
a history of violence toward her ex-husband’s current
romantic interest, and there were guns in the house,
this does not provide “objectively reasonable” grounds
for believing that her child was in immediate danger;
warrantless entry held unconstitutional); United States
v Brown, 230 F Supp 3d 513, 525 (MD La, 2017)
(warrantless entry to look for someone inside held

31
unlawful); United States v Calhoun, 236 F Supp 2d
537, 548 (DC Conn, 2017) (search to see if anyone
might be present and in danger is not justified; “the
officers’ objectively reasonable belief must be based on
something more than speculation”); People v Ovieda, 7
Cal 5th 1034, 1043 (Cal Supreme Court, 2019)
(protective sweep to see if anyone was in the house in
need of aid violates the Fourth Amendment). United
States v Washington; Osborne; Sanchez v Gomez, 2017
U.S. Dist. LEXIS 141981 (WD Tex. 2017). The
disparate views should be reconciled by this Court.
II. THE COURT OF APPEALS DECISION THAT
IT WAS NOT “EXCESSIVE FORCE” FOR
RESPONDENT DRISCOLL TO KILL KYLE
BAKER SHOULD BE REVIEWED
A. Overview
The Fourth Amendment prohibits the use of
excessive force against citizens. Tennessee v Garner,
471 U.S. 1 (1985); Graham v Connor, 490 U.S. 386
(1989).
The dimensions of the protection were explained in
Graham, 490 U.S. at 396-397:
“As in other Fourth Amendment contexts,
however, the reasonableness inquiry in an
excessive force case is an objective one: the
question is whether the officers’ actions are
‘objectively reasonable’ in light of the facts and
circumstances confronting them, without regard
to their underlying intent or motivation.”

32
The question of “objectively reasonable” depends on
the unique facts and circumstances confronting the
officer. This is necessarily so, as the calculus requires
balancing the nature and quality of the intrusion on
Fourth Amendment interests against the
countervailing governmental interests (Graham, 490
U.S. at 396). As the Graham Court observed (490 U.S.
at 396):
“[T]he test of reasonableness under the Fourth
Amendment is not capable of precise definition
or mechanical application, Bell v. Wolfish, 441
U.S. 520, 559, 60 L.Ed.2d 447, 99 S. Ct. 1861
(1979), however, its proper application requires
careful attention to the facts and circumstances
of each particular case, including the severity of
the crime at issue, whether the suspect poses an
immediate threat to the safety of the officers or
others, and whether he is actively resisting
arrest or attempting to evade arrest by flight.”
Taking human life is the most grave exercise of
power that government can wield over a citizen.
Practically speaking, the use of lethal force is only
justified when necessary to avoid death or injury to
others.

33
B. Certiorari Should Be Granted to Consider
Whether Summary Judgment is Warranted
in an Excessive Force Case Where the
Defendant’s Claim of Self-Defense is
R ef u t ed by S c ien t if i c Ob jec tive
Circumstantial Evidence
As in many instances of dead suspects, the officer
inflicting the lethal wounds was the only eyewitness.
The other officers claimed not to have seen the
shooting, so the only person to support the “selfdefense” notion is Driscoll, whose fatal shooting
silenced Kyle’s side of the story. Driscoll waited over
one month before giving his explanation, a fact to
which the lower courts attached no significance.
With this delay, Driscoll could await the reports of
the other three officers before committing to his own
version of events. He could draft his own account to
make sure that his story comported with theirs. The
fact that Driscoll waited one month before committing
to his version fairly draws in question his memory and
the opportunity to falsify.
It is in this context that the autopsy report, an
objective recitation of scientific fact, assumes such
importance. In this case, the medical examiner’s
examination refuted the account of Respondent in
many critical particulars. As one major example,
Driscoll claimed that Kyle struck him with the
lawnmower blade, and that this was the reason for the
shooting. Yet, by Driscoll’s own testimony, Kyle was
seven feet away at the time of the shooting. The blade
was considerably shorter than that. It was physically
impossible for Kyle to have struck Driscoll with the

34
blade from seven feet away. And, the absence of
gunpowder residue confirms that this was not a close
range shooting as Driscoll claimed.
The trajectory of the bullet also disproves Driscoll’s
version. While the district court scoffed at this
evidence, it scarcely takes a ballistics expert to realize
that a shot fired upward, as Driscoll claimed, cannot
reverse direction midflight to strike the target at a
downward trajectory. Nor can a bullet fired from right
to left enter the decedent’s body from the opposite
direction. In short, the scientific evidence proves that
the fatal shot was fired by Driscoll from above Kyle at
such a distance that Driscoll could avoid lethal force by
disengaging, as the other Respondents had.
As has often been noted, the general principles of
Rule 56(c) jurisprudence, viewing the facts and
reasonable inferences favorably to the non-movant,
apply to the “excessive force” issues of this case. As the
Court explained in Adams v Metiva, 81 F3d 375, 387
(6th Cir. 1994), “It is the province of the jury, not the
court, to decide on the credibility of the defendant’s
account of the need for force”. Accord: Smith v
Township of Hemet, 394 F3d 689, 701 (9th Cir. 2005);
Groman v Township of Manalapan, 47 F3d 628, 634 (3rd
Cir. 1995). The fact that a police officer’s “self-defense”
account is refuted by scientific evidence gives rise to a
disputed issue of fact, Brandenburg v Cureton, 882 F2d
211, 215 (6 th Cir. 1989).
The failure to consider the autopsy report conflicts
with that body of law. And, is crucial to the outcome.
If, as the autopsy reflects, Driscoll shot downward at
Kyle from so far away as to leave no stippling, then

35
reasonable jurors can conclude that he could readily
withdraw without taking Kyle’s life.
Courts have held under comparable facts that it is
unconstitutional to kill someone when the surrounding
facts do not reflect an immediate threat of serious
harm. Brandenburg; Dickerson v McClellan, 101 F3d
1151, 1163-1164 (6th Cir. 1996); Smith v Cupp, 430 F3d
766, 775 (6th Cir. 2005); Sample v Bailey, 409 F3d 689,
699 (6th Cir. 2005); Groman.
The courts below placed great reliance on Chappell
v City of Cleveland, 583 F3d 901 (6th Cir. 2009). There,
the prime suspect in an armed robbery investigation
admitted to committing several armed robberies
previously (585 F3d at 904) - - not a suspected cell
phone thief or LSD experimenter. Unlike here, the
officers in Chappell obtained a warrant (Id.). While
executing the warrant, the officers faced the suspected
robber who pulled a knife and advanced to about six
feet away (585 F3d at 910). Significantly, “Both
detectives were backed up against a wall in the small
bedroom and there was no ready means of retreat or
escape” (585 F3d at 911). Here, in sharp contrast,
Driscoll could have readily withdrawn, just as the other
officers had.
These very distinctions were the focus of Bletz v
Gribble, 641 F3d 743, 753 (6th Cir. 2011). There, the
officer shot and killed a man in his own home when the
decedent pointed a gun at the officer and did not
promptly comply with orders to drop the weapon. This
Court upheld denial of summary judgment, rejecting
reliance on Chappell:

36
“Here, there was no imputation of past or
potential future violence on the part of Fred. In
Chappell, the officers were in a small room with
no opportunity to retreat. Here, the officers
were in a breezeway, only feet away from the
outside and, arguably, safety. In Chappell, the
subject had advanced to within five to seven feet
and was apparently lunging forward with a
knife. Here, Fred was fifteen feet away and was
allegedly lowering his weapon.
Most importantly, in Chappell, “[n]one of [the]
facts [were] refuted by physical or
circumstantial evidence and none [were]
disputed by contrary testimony.”
Another similar case is Scozzari v City of Clare, 723
F Supp 2d 945 (ED Mich, 2010), affirmed, Scozzari v
Miedzianowski, 454 Fed Appx 455 (6th Cir. 2012),
where the police shot a mentally ill man who had
committed no known crime, used the same vulgarity as
Kyle in refusing an officer’s request to drop his gun,
and retreated into his own home (723 F Supp 2d at
953). In entering the home, the police claimed to be
concerned that someone inside could be in danger - - the same speculation offered by Respondents in this
case. When decedent failed to drop a knife or hatchet
and was advancing at the officer who claimed to have
fallen (sound familiar?), the officer killed him.
Ultimately, the Court upheld denial of summary
judgment, rejecting the Defendant’s reliance on
Chappell (454 Fed. Appx. at 463).

37
Another comparable case is Maddox v City of
Standpoint, 2017 U.S. Dist. LEXIS 161596 (DC Idaho,
2017). In that case, which did not involve the sanctity
of a home, the police received a report of a woman
standing outside a hospital with a knife threatening
people. When they approached, demanding that she
drop the knife, she responded “F*** you” and continued
to walk toward the officer. After tasering the suspect,
two officers opened fire, killing the woman. After
reviewing the factors at length and discussing
Chappell, the Court rejected the officers’ “qualified
immunity” argument.
The Maddox Court observed:
“‘A simple statement by an officer that he fears
for his safety or the safety of others is not
enough, there must be objective facts to justify
such concern.’ Deorle v Rutherford, 272 F. 3d
1272, 1281 (9th Cir. 2001).”
The ruling below conflicts with this body of law on
a subject as grave as the authority of government to
take human life. That is sufficiently important as to
warrant Supreme Court review.

38
CONCLUSION
WHEREFORE, Petitioner HEATHER BAKER,
Personal Representative if the Estate of Kyle Baker,
Deceased, prays that this Honorable Court grant her
Petition for Writ of Certiorari.
Respectfully submitted,
Mark R. Bendure
Counsel of Record
BENDURE & THOMAS, PLC
15450 E. Jefferson Avenue, Suite 110
Grosse Pointe Park, MI 48230
(313) 961-1525
bendurelaw@cs.com
Counsel for Petitioner

